"NA

1- J

A (A = cJ‘A
Aj v-

(: : {, A).
j

rJ W!

No.
IN THE

SUPREME COURT OF THE UNITED STATES

MIKHAIL S. TSUKERMAN - PETITIONER
v.

WESTERN COMMUNITY UNIT SCHOOL
DISTRICT NO. 12 ET AL. - RESPONDENTS

On Petition for A Writ of Certiorari
to the United States District Court of Appeals
For the Seventh Circuit
PETITION FOR WRIT OF CERTIORARI
Mikhail S. Tsukerman,
Acting Pro Se
5 Delcrest Court, apt. 104
St. Louis, Missouri 63124
(314) 872-9545
tsukerman@sbcglobal.net

Supreme Court, U.S.
FILED

JUL 0 8 2020
OFFICE OF THE CLERK

A. QUESTIONS PRESENTED FOR REVIEW
1. Whether the Court should resolve the following question for which the
Courts of Appeals are split (including the United States Court of Appeals
for the Seventh Circuit of last resort in this case): should the courts
effectively protect plaintiffs from paying defendants’ expenses from
previously dismissed action so refiled cases can be decided on merits rather
than technicalities, in view of Herring v. City of Whitehall, 804 F.2d 464
(8th Cir. 1986) precedent.

2. Whether the Court should determine the priorities in the case of potential
conflict between two (or more) Federal Rules of Civil Procedure, in this
case FRCP 60(b), specifically FRCP 60(b)(l)-(3) and FRCP 41(b).

3. Whether the Court should enforce the desired uniformity of opinion by
setting guidelines which would eliminate occurrences when the opinion of
the lower court or even an individual judge seemingly contradicts their own
from similar unrelated case.

B. LIST OF PARTIES AND RELATED CASES
[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:
Mikhail S. Tsukerman- Petitioner;
Western Community Unit School District #12,
Connie Thomas, Western High School Principal,
Law Firm of Becker, Hoemer & Ysursa,
Thomas J. Hunter, Attomey-at-Law - Respondents.

RELATED CASES
Tsukerman v. Western Community Unit School District #12 et al., 3:16-cv-03214SEM-TSH, Central District of Illinois — Springfield Division; judgment of dismissal with
prejudice entered September 30,2019.
Tsukerman v. Western Community Unit School District #12 et al., No. 19-3075,
United States Court of Appeals for the Seventh Circuit; judgment affirmed March 5,2020,
petition for rehearing denied April 13,2020.

n

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or, [x] is
unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or, [x] is
unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or, [ ] is
unpublished.
The opinion of the____________________
appears at Appendix _ to the petition and is

court

[ ] reported at________________________
; or,
[ ] has been designated for publication but is not yet reported; or, [ ] is
unpublished.

in

to

C. TABLE OF CONTENTS AND TABLE OF CITED AUTHORITIES
Page
1. TABLE OF CONTENTS
A. QUESTIONS PRESENTED FOR REVIEW

1

B. LIST OF PARTIES AND RELATED CASES

n

C. TABLE OF CONTENTS AND TABLE OF CITED AUTHORITIES
1. TABLE OF CONTENTS...................................................

IV

2. TABLE OF AUTHORITIES............................................................

VI

IV

D. RELATED CASES

1

E. BASIS FOR JURISDICTION

2

F. CONSTITUTIONAL PROVISIONS AND LEGAL PRINCIPLES
INVOLVED........................................................................................

3

G. STATEMENT OF THE CASE..........................................................

3

H. REASONS FOR GRANTING THE WRIT

10

1. Whether the Court should resolve the following question for
10
which the Courts of Appeals are split (including the United
States Court of Appeals for the Seventh Circuit of last resort in
this case): should the courts effectively protect plaintiffs from
paying defendants’ expenses from previously dismissed action so
refiled cases can be decided on merits rather than technicalities,
in view of Herring v. City of Whitehall\ 804 F.2d 464 (8th Cir.
1986) precedent..............................................................................
2. Whether the Court should determine the priorities in the case of 15
potential conflict between two (or more) Federal Rules of Civil
Procedure, in this case FRCP 60(b), specifically FRCP 60(b)(1)(3) and FRCP 41(b)........................................................................
3. Whether the Court should enforce the desired uniformity of
opinion by setting guidelines which would eliminate occurrences
when the opinion of the lower court or even an individual judge
seemingly contradicts their own from similar unrelated case...
I. CONCLUSION........................................................................................
IV

19

27

INDEX TO APPENDICES.
Court Order from March 5, 2020
Appendix A
Seventh Circuit’s order affirming the lower court’s dismissal with prejudice.
Appendix B
Court Order from September 30, 2019
US District Court for the Central District of Illinois - Springfield Division,
dismissing the case with prejudice for want of prosecution.
Court Order from April 13, 2020
Appendix C
Seventh Circuit’s order denying panel rehearing/rehearing en banc.
Appendix D
Albert Watkins’ legal troubles
Appendix D contains newspaper articles describing legal troubles of
Petitioner’s ex-counsel Albert Watkins that lead to his mishandling and later
dropping Petitioner’s case.
Appendix E
Hunter’s misconduct in the case
Appendix E contains letter by Garrett Hoerner from Respondent Becker,
Hoerner & Ysursa admitting possession of Petitioner’s entire personnel file!
copies of Petitioner’s rebuttal - shortened version negligently submitted to
Respondents by Albert Watkins and purposely used by Respondent Hunter,
constituting tampering, and correct versions Hunter had at least 3 months prior,'
excerpts from Petitioner’s deposition showing Hunter’s tampering and his
unwillingness to conduct the case fairly,' copy of a draft showing the settlement
was imminent; excerpts from Respondent Thomas’ deposition showing Hunter
leading her into perjury since her testimony contradict Petitioner’s evaluation
done by her; copy of that evaluation; disclosures by Hunter listing false witness
Curt Simonson; excerpts from yearbooks 2012-13 and 2013-14 showing absence
of Curt Simonson; Hunter’s explanation letter to Illinois ARDC in which he
deceives authorities by falsely claiming obtaining documents after Petitioner’s
deposition despite separate proof that he had them before! form confirming
Hunter status as defendant despite his denials of that fact.

v

2. TABLE OF AUTHORITIES
Cases
Page
Aggarwal v. Ponce School ofMedicine, 745 F.2d 723, 727-28
(1st Cir. 1984).................................................................................

14, 22

Anderson v. Cryovac, Inc., 862 F.2d 910,928-930 (1st Cir. 1988) ...

19, 21,
25

Andrews v. America’s Living Centers, LLCet al., 827 F.3d 306, 310
(4th Cir. 2016).................................................................................

11, 13, 25

Ayissi-Etoh v. Fannie Mae, 712 F.3d 572 (D.C. Cir. 2013).............

25

BankFinancial, FSB v. Tandon, 2013 IL App (1st) 113152...........

17

Bolt v. Loy, 227 F.3d 854 (7th Cir. 2000).........................................

25

Del Carmen v. Emerson Electric Co., 908 F.2d 158 (7th Cir. 1990)

20

Duffy v. Ford Motor Company, 218 F.3d 623 (6th Cir. 2000).........

11-12,
25

Easley v. Kirmsee, 382 F.3d 693 (7th Cir. 2004)...............................

24-25
9, Il­

Esposito v. Piatrowski, 223 F.3d 497, 498 (7th Cir. 2000)................

ls, 2326

Evans v. Griffin, Case No. 17-1957
(7th Cir., decided August 7,2019).....................................................

22

Gabriel v. Hamlin, 514 F.3d 734 (7th Cir. 2008)............................

17, 22

Garza v. Citigroup, Inc., 881 F.3d 277, 281 (3rd Cir. 2018) Precedential.....................................................................................

13, 25

Gay v. Chandra, 682 F.3d 590, 594 (7th Cir. 2012)......................

9, 14,
21-22

Herring v. City of Whitehall, 804 F.2d 464,466 n. 2 (8th Cir. 1986) ..

i, 1013, 25

Hughes v. Rowe, 449 U.S. 5 • 101 S. Ct. 173 (1980)....................

10-11

Hummell v. S.E. Rykoff & Co., 634 F.2d 446, 452 (9th Cir. 1980)

14

Johnson v. Chi. Bd. OfEduc., 718 F.3d 731 (7th Cir. 2013)........

23

VI

Kasalo v. Harris & Harris, Ltd., 656 F.3d 557 (7th Cir. 2011)........

22

Lau v. Glendora Unified School Dist., 792 F.2d 929 (9th Cir. 1986) ..

20

Linkv. Wabash Railroad Co., 370 U.S. 626 • 82 S. Ct. 1386 (1962)

10-11

Lonsdorfv. Seefeldt, 47 F.3d 893 (7th Cir. 1995)..............................

19, 21,
25

Lowe v. City ofEast Chicago, 897 F.2d 272 (7th Cir. 1990) ....

20

Malin v. Hospira, Inc., 762 F.3d 552 (7th Cir. 2014)................

19, 25

Marlow v. Winston Strawn, 19 F.3d 300, 305 (7th Cir. 1994) ...

20, 25

Martinez v. Chicago, 499 F.3d 721 (7th Cir. 2007)..................

24-25

Miller v. Donald, 541 F.3d 1091,1096-97 (11th Cir. 2008).....

13

Mother & Father v. Cassidy, 338 F.3d 704, 708 (7th Cir. 2003)

20-21,
24-25

O’Shaughnessey v. HSHSMed. Grp., Inc., Case No. 3:17-cv-3311
(C. D. Ill. - Springfield Division, May 1,2019)............................

22

Palmer v. City ofDecatur, Illinois, 814 F.2d 426 (7th Cir. 1987) ...

15, 17,
20, 25

Penny v. Shansky, 884 F.2d 329 (7th Cir. 1989)................................

21

Pierce v. III. Dept, ofHuman Serv., 355 Fed. Appx 28 (7th Cir. 2009)

5

Rice v. City of Chicago, 333 F.3d 780 (7th Cir. 2003).......................

21

Rozierv. Ford Motor Co., 573 F.2d 1332, 1339 (5th Cir. 1978).......

19, 21,
25

Rumbough v. Equifax Information Services, LLCetal., Case No. 1014605 (11th Cir., decided March 9, 2012)........................................

11, 1314, 26

Schilling v. Walworth County Park, 805 F.2d 272 (7th Cir. 1986) ...

13, 1517, 20,
25

Smith v. Sheahan, 189 F.3d 529 (7th Cir. 1999)...............................

25

Smolinski v. Allmerica Financial Alliance Insurance Co., No. 2014
IL App (1st) 132029-U....................................................................

17

Sroga v. Huberman, 722 F.3d 980 (7th Cir. 2013)............................

23

Tango Music, LLC v. DeadQuickMusic, Inc., 348 F.3d 244, 247
(7thCir. 2003)............................................................................ .
Vll

24-25

Waldon v. Wal-Mart Stores, Inc., Store No. 1655, 943 F.3d 818, 822
(7th Cir. 2019)..................................... ......................................................

19, 25

Waldridge v. American Hoechst Corp., 24 F.3d 918 (7th Cir. 1994) ..

5

Webber v. Eye Corp., 721 F.2d 1067 (7th Cir. 1983)..........................

20

Williams v. Adams, 660 F.3d 263 (7th Cir. 2011)................................

21, 2425

Rules
FRCP 26....
FRCP 37....
FRCP 41(d)
FRCP 60(b)

7
7

i, 15, 17-19
i, 10-11,
15, 19-21

Statutes
28 U.S.C. § 1254(1)

2

Other
U.S. Const, amend. VII..
U.S. Const, amend. VIII
U.S. Const, amend. IX...

3, 17
3, 17
3, 17

vm

The Petitioner, MIKHAIL S. TSUKERMAN, requests that the Court issue its writ of
certiorari review the judgment of the United States Court of Appeals for the Seventh Circuit
entered in this case March 5, 2020 (opinion denying rehearing entered on April 13, 2020).

D. RELATED CASES
Tsukerman v. Western Community Unit School District #12 etal., 3:16-cv-03214-SEMTSH, Central District of Illinois — Springfield Division; judgment of dismissal with prejudice
entered September 30,2019.
Tsukerman v. Western Community Unit School District #12 et al., No. 19-3075, United
States Court of Appeals for the Seventh Circuit; judgment affirmed March 5, 2020, petition for
rehearing denied April 13, 2020.

1

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant to 28 U.S.C. § 1254(1) to review the
final judgment of the United States Court of Appeals for the Seventh Circuit.

[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 5,2020.
[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: April 13,2020, and a copy of the
Order denying rehearing appears at Appendix C.
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix________.
[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

F. CONSTITUTIONAL PROVISIONS AND LEGAL PRINCIPLES
INVOLVED
The Seventh Amendment to the Constitution guarantees “In suits at common law, where the
value in controversy shall exceed twenty dollars, the right of trial by jury shall be preserved”.
U.S. Const, amend. VII.
The Eighth Amendment to the Constitution prohibits “excessive fines imposed.” U.S. Const.
amend. VIII.
The Ninth Amendment to the Constitution states “The enumeration in the Constitution, of certain
rights, shall not be construed to deny or disparage others retained by the people.” U.S. Const.
amend. IX.

G. STATEMENT OF THE CASE
The Petitioner Mikhail S. Tsukerman, a naturalized US citizen originally from former
Soviet Union (now Ukraine) and of Jewish heritage, was employed by Respondent Western
Community Unit School District #12 (“Western”), a rural district in central Illinois for two
school years, from August 2012 to May 2014 as a high school math teacher. Since the previous
candidate backed out right before the beginning of the school year, Petitioner was hired at the
last moment and rented a house from Western, making it his landlord in addition to his employer.
It was done because no other rental places were available at the time. The house in question was
in “as-is” condition.
Petitioner’s two years of employment were very different. During the first year Petitioner
received stellar job evaluations and his employment was renewed for another year. He also
actively and successfully participated in a summer pilot program run by Western in cooperation
with local community college.
3

The second year was completely opposite to the first. When the incoming freshman class,
called “class from hell” by high school principal Connie Thomas (“Thomas”), started school
year, the schoolwide discipline significantly decreased. At the same time, Petitioner’s treatment
by Thomas soured for no apparent reason. Petitioner did not advertise his Jewish heritage either
explicitly or implicitly, being a secular person with prior knowledge of anti-Semitic sentiment’s
existence in many rural areas. However, he has a strong reason to believe that his heritage was
discovered by Western’s employees who frequently came to the house for repairs and apparently
saw obviously Jewish-themed literature and food items at that residence. As the second school
year progressed, Petitioner was subjected to numerous anti-Semitic statements masqueraded as
jokes and becoming more frequent and vicious. Then in February 2014 with an interval of couple
of days, two swastikas were carved into Petitioner’s then-classroom wall. Despite his request, no
investigation was done by Western and the swastikas were not removed for more than three
weeks after their appearance. Since Western refused to even acknowledge swastikas as a
problem, Petitioner himself made a short video of them as a proof, which was later introduced
during the discovery process. In the same time frame one of his students marched Nazi-style in
Petitioner’s classroom. The disciplining of that student was unusually lenient. At the same time
Thomas gave Petitioner bad job evaluations in stark contrast with first year’s ones, also done by
her. Petitioner was given low marks for performance areas across the board, including areas
clearly outside of his area of expertise. He was also blamed for swastikas, referred in the
evaluations as “drawings on the walls”. Petitioner was able to finish out the school year only by
being heavily medicated to relieve stress, since he is a direct descendant of both Holocaust
survivors and Holocaust victims. His teaching contract at the end of the school year was not
renewed, only one such teacher at the high school level. He was in his late 40s at the time.

4

Petitioner submitted job discrimination claim to EEOC. After investigating, EEOC issued
him right-to-sue letter. He sued Western on grounds of religious and age discrimination and
retaliation. He was first represented by Joshua Pierson from law firm of Sowers Wolf LLC. Then
Mr. Pierson backed out without explanation just two weeks before filing deadline. After frantic
search, Petitioner found a replacement - Albert Watkins (“Watkins”) from the law firm of
Kodner Watkins LLC. Western hired not one but two law firms to defend it - Respondent
Becker, Hoemer & Ysursa (“BHY”) from Belleville, Illinois and Schmiedeskamp, Robertson,
Neu & Mitchell from Quincy, Illinois, with BHY being primary counsel. After completing
discovery both sides’ counsels got engaged in settlement talks, encouraged by then-judge at the
United States District Court for the Central District of Illinois — Springfield Division (from here
on referred to as “District Court”). Petitioner met with Watkins on October 31,2017 to discuss
settlement talk strategy. However, the following day Respondent Thomas J. Hunter from BHY
(“Hunter”) filed motion for summary judgment on behalf of Western. Despite being timely given
sufficient information by Petitioner to refute summary judgment motion, Watkins responded at
the last moment, barely allowing Petitioner to avoid fate of Pierce v. III. Dept, ofHuman Serv.,
355 Fed. Appx 28 (7th Cir. 2009). His response was inadequate even in the view of Petitioner
who is not a lawyer. Accordingly, Respondents’ motion for summary judgment, despite being
frivolous and meritless, would have been granted on technicality since Watkins’ response failed
to conform to Local Rule 7.1(D), based on case of Waldridge v. American Hoechst Corp., 24
F.3d 918 (7th Cir. 1994). Later, in January 2018 Watkins got in legal trouble stemming from
unrelated case. His behavior in that case jeopardized the integrity of upcoming trial, as it did in
Petitioner’s case. (Appendix D). As Petitioner’s court date, scheduled for May 2018, approached,
Watkins, apparently preoccupied with own legal troubles, wanted to dispose of Petitioner’s case.

5

He did exactly that, without Petitioner’s consent and against his wishes asking for voluntary
dismissal without prejudice. After the fact, Watkins notified Petitioner that by asking for the
dismissal, he did Petitioner a favor since summary judgment motion would likely be granted.
Petitioner now knows that would be true due to reasons stated earlier in this paragraph. The
dismissal was granted on April 20, 2018. Afterwards, Watkins gave case files to Petitioner in
total disarray, with many documents claimed to be sent by Respondents nowhere to be found.
Later, he sent Petitioner a letter dated May 2,2018 stating his withdrawal from the case and
telling Petitioner that he had one year to refile, at the same time discouraging him from doing so.
That letter also lacked any legal advice, leaving Petitioner to piece the case together on his own.
Upon reviewing case files, Petitioner discovered numerous violations by opposition,
(Appendix E) occurring in the following order:
On June 13, 2017, Garrett Hoemer from BHY, who at the time was representing the
original Respondent Western, sent Defendant’s Disclosures to Watkins, admitting possession of
the entire Petitioner’s personnel file, since words “excerpts” or similar were never used.
On September 14,2017 while conducting Plaintiffs deposition, Respondent Hunter who
took over the case from Garrett Hoemer, tampered with evidence, presenting shortened version
of Petitioner’s rebuttal of his negative job evaluation. He did so despite having possession of
correct version, as mentioned in previous paragraph. His denials of tampering are ludicrous since
someone as detail-oriented as Hunter could not possibly miss the fact that the pages in the altered
document are not logical continuation of each other.
On October 3,2017 Hunter took over questioning of Thomas during her deposition and
led her into peijury by alleging drawings of penises in Petitioner’s classroom despite absence of
any physical proof to support such allegations, unlike swastikas’ video. Hunter never asked

6

Petitioner about alleged penises drawings during his deposition, depriving him opportunity to
deny those allegations.
On October 6,2017 Hunter sent Defendant’s Third Set of Disclosures to Watkins, listing
as a witness Curt Simonson, Western’s ex-superintendent as “having knowledge of Plaintiff’s
reputation as employee”. Since Mr. Simonson never worked at Western simultaneously with
Petitioner, such “knowledge” is hearsay at best, perjury at worst. He also listed Teresa Schultz,
Western bookkeeper, whose job never included duties listed, referring to her as “he” in process.
Finally, he listed Jason Bryant and Steve Hayden to “confirm” false claims of penis drawings for
which no physical proof had ever existed nor any attempt to prove it made other than offered
testimony presented by Respondents.
On November 1, 2017 in the middle of settlement negotiations Hunter filed frivolous and
meritless motion for summary judgment. His prior illegal actions apparently intimidated Watkins
into nonaction.
On June 24, 2019 Hunter, after being reported by Petitioner to Illinois Attorney
Registration and Disciplinary Commission wrote explanation letter, claiming to “gather
numerous additional documents” after Petitioner’s deposition, without presenting any proof of
his alleged actions, contrary to having the mentioned documents in his possession all along. He
also falsely accused Petitioner of illegal threats, which is a libel and should be viewed as such.
In the time frame described Hunter repeatedly refused to disclose to Petitioner relevant
documents, including after the appeal which reactivated the case, thus making Hunter’s actions
an obstruction ofjustice since he violated FRCP 26 and 37.
After learning such information and numerous unsuccessful attempts to secure another
counsel, Petitioner refiled his case pro se on April 16,2019, within one year time frame provided

7

to him by Watkins. He also amended it, adding BHY and Hunter as additional defendants since
all the actions by Hunter described above took him out of category of counsel and into category
of accomplices, thus warranting his inclusion as defendant, along with BHY, on which behalf he
committed them, and Thomas due to her peijury.
Petitioner, knowing importance of timeliness injudicial system, filed all his paperwork
timely. However, since he is not a lawyer, following the timelines negatively affected his case
research. Unaware of importance of citing precedents, he did not cite any at the District Court
phase. Plus, Hunter immediately filed combined motion to dismiss or to strike or for summary
judgment in which he demanded Petitioner to pay Western’s expenses and attorney fees. The
judge denied attorney’s fees but stayed the case pending payment of Respondents’ expenses.
Petitioner filed Motion to Waive Payment citing his indigence due to Respondents’ actions and
attaching his latest tax return as proof. The motion was denied without explanation, not
considering that Petitioner’s indigent status is a direct result of Respondents’ actions. Not
knowing what to do next, Petitioner did nothing for about three months. Then he received
District Court’s order to file status report showing why the case should not be dismissed for want
of prosecution. Not knowing what to do, Petitioner filed status report to the best of his ability,
restating, among others, his indigence and the fact that said expenses were used by Hunter to
commit illegal and possibly criminal actions. Then, on September 30, 2019 the case was
dismissed with prejudice for want of prosecution “since Plaintiff neither expressed willingness to
pay Defendants’ expenses nor presented convincing argument as to why he should not pay”,
followed by identical order on October 2,2019.
Petitioner timely filed his intention to appeal and filed timely appeal to the United States
Court of Appeals for the Seventh Circuit (from here on referred to as “Seventh Circuit”). In both

8

courts since filing pro se, he was granted the leave to proceed in forma pauperis. On appeal,
guided by the rules, he cited multiple precedents, including ones described in next sections.
Petitioner asked to reverse and remand the District Court’s decision. However, on March 5,2020
that decision was affirmed by 3-judge panel, based on two cited precedents. The first one, Gay v.
Chandra, 682 F.3d 590, 594 (7th Cir. 2012) was actually reversed and remanded. One of
Petitioner’s case panel members, Judge Hamilton, was a panel member in Gay as well. It means
that Judge Hamilton made a decision directly contrary to his own in previous case cited by him
in Petitioner case’s decision. The other one, Esposito v. Piatrowski, 223 F.3d 497, 498 (7th Cir.
2000) cited by Defendants ad nauseam, was thoroughly debunked by Petitioner as inappropriate
for his case but used by the panel nevertheless. The panel review was too narrow, concentrating
on payment only and missing numerous points and precedents Petitioner presented. The panel
also freely interchanged words “expenses” and “costs” (meaning court costs) throughout its
nonprecedential decision. The panel apparently sided with Respondents. This inference can be
made by noticing that Respondents’ language was incorporated into the decision, including the
fact that Petitioner’s condition, correctly called “indigence” in Gay, was named “indigency”,
exactly as written by Respondent Hunter. Petition for Panel Rehearing/Rehearing En Banc that
followed, citing those facts, was denied without explanation. This Petition follows.
Petitioner submits this Petition for Writ of Certiorari because the panel decision
(Appendix A) conflicts with earlier decisions of the Seventh Circuit in numerous cases
spanning multiple issues, including but not limited to: showing judicial restraint; assuring
that the side using dishonorable means to prevail would not be allowed to do so; assessing
the entire situation regarding the expenses incurred by defendant and allowing Plaintiff to
withdraw voluntary dismissal if conditions for refiling are onerous, and reconsideration was

9

Jt

therefore necessary to secure and maintain uniformity of the Court's decisions. Additionally the
proceeding involves questions of exceptional importance, because it involves issues on which the
panel decision conflicts with the authoritative decisions of other United States Courts of Appeals
that have addressed the issues, including relieving plaintiffs from paying excessive for them
defendant’s expenses regardless of whether prior dismissal resulted from own mistakes or
substandard representation by ex-counsel and raised by Plaintiff but never mentioned in panel’s
decision issue of application of FRCP 60(b)(l)-(3) due to opposition’s misconduct. Petitioner did
not see any of the points he made in his Appellant’s Reply Brief - Amended (from here on
referred to as “ARBA”), submitted to the Seventh Circuit on February 13, 2020 and their
respective merits discussed in the Order, leading him to believe that the panel has overlooked or
misapprehended the points in question since the decision is made as if the Appellees’ Brief was
not rebutted at all, despite Petitioner’s effort to debunk Appellees’ Brief as thoroughly false.

H. REASONS FOR GRANTING THE WRIT
1.
Whether the Court should resolve the following question for which the Courts of
Appeals are split (including the United States Court of Appeals for the Seventh Circuit of
last resort in this case): should the courts effectively protect plaintiffs from paying
defendants’ expenses from previously dismissed action so refiled cases can be decided on
merits rather than technicalities, in view of Herring v. City of Whitehall, 804 F.2d 464 (8th
Cir. 1986) precedent.
Even when issues of application of FRCP 60(b)(l)-(3) and/or opposition misconduct are
not involved, Seventh Circuit’s approach to question of defendants’ expenses from previously
dismissed action conflicts with its sister Circuits.
This Court already reversed Seventh Circuit on Hughes v. Rowe, 449 U.S. 5 (1980) by
ruling that non-payment of defendants’ expenses cannot be used to involuntarily dismiss a
meritorious case. Furthermore, Respondents’ previous citation of Link v. Wabash Railroad Co.,
370 U.S. 626 (1962) is deliberately misleading since in Link plaintiff never faced an issue of
10

defendants’ expenses brought on him by his lawyer, nor did he use FRCP 60(b) as a way to get a
redress. Additionally, Link applies to both parties and as such, original Respondent Western is
bound by well-documented Hunter’s misconduct.
Since no case in the US judicial system is an exact carbon copy of another one, both
at federal and state levels, Petitioner finds the attempt to equate his case with a single previous
one offensive. Petitioner presented variety of precedents where dismissals with prejudice were
reversed and remanded, including plaintiffs incarcerated and non-incarcerated, indigent and nonindigent, pro se and counsel-represented. In this case Petitioner is disabled as a result of antiSemitic actions at Western, but his disability application is still pending. It means that Petitioner
has to support himself for basic needs, including but not limited to food, shelter and medical
care. While supporting himself in honest way, Petitioner is also paying taxes, some of which are
used to support inmates, including those similar to Esposito, whose case is unfairly compared to
his. In cases where plaintiffs are not incarcerated, the standard of review is even more lenient.
Since these plaintiffs take care of their everyday needs themselves, they don’t even have to prove
indigence. They only need to prove that the defendants’ expenses are excessive and paying them
would put an undue hardship on plaintiff. Since establishment of Hughes numerous Courts of
Appeals created precedents relieving plaintiffs from paying defendants’ expenses from
previously dismissed action and more. Such cases were cited by Petitioner, including Herring v.
City of Whitehall, 804 F.2d 464,466 n. 2 (8th Cir. 1986), Andrews v. America’s Living Centers,
LLC et al., 827 F.3d 306, 310 (4th Cir. 2016), Duffy v. Ford Motor Company, 218 F.3d 623 (6th
Cir. 2000) and Rumbough v. Equifax Information Services, LLC et al., Case No. 10-14605 (11th
Cir., decided March 9,2012), all presented in this Petition.
One precedent involving relieving plaintiffs from paying defendants’ expenses is

11

■Herring, a reversed and remanded case involving indigent plaintiffs, which their ex-counsel
ruined due to reasons outside of the case. Upon refiling, plaintiffs found defendants’ expenses
amount, comparable to Petitioner’s in today’s dollars, prohibitively excessive.
Herring was used to decide Duffy, another reversed and remanded case giving precedent
of plaintiffs not having to pay defendants’ expenses from previously dismissed action. Decided
during the same time frame as inappropriate for this case Esposito, Duffy deals with plaintiffs
who had to dismiss their case due to ex-counsel’s ineptness that ruined the original case. Their
stipulation regarding refiling was even stricter than Petitioner’s, explicitly spelling out that they
would have to, not could, pay defendant’s expenses from previous action upon refiling. Yet in
rendering its decision the court declared that the primary fault lies with plaintiffs’ ex-counsel
rather than plaintiffs, relieved plaintiffs from payment and reversed lower court’s dismissal with
prejudice, remanding the case. It was done despite acknowledging that such decision is
prejudicial against the defendants. In Duffy plaintiffs dismissed their case themselves, albeit
under duress. By contrast, in present case the dismissal was done against Petitioner’s wishes by
his ex-counsel, not by Petitioner through his counsel, as the Order states. Also, Watkins notified
Petitioner about consequences after the dismissal, not before, leading Petitioner to question on
whose side Watkins was. Petitioner also presented proof on the record that at the time Watkins
was in personal legal trouble stemming from an unrelated to his, namely involving Missouri’s
then-Govemor case. (Appendix D). Also, unlike Duffy, the denial of Respondents’ expenses
would not be prejudicial against them since those expenses were used to facilitate illegal and
possibly criminal actions, as mentioned before.
In deciding Duffy the court specified that the decision to reverse and remand was based
not on the principle of excessiveness of defendant’s expenses in general, but rather on

12

excessiveness of those expenses to plaintiff in citing Herring.
The fact that Esposito is not standard-altering case is illustrated by post -Esposito cases
relieving plaintiffs from paying defendants’ expenses. One such precedent is Andrews, cited in
detail by Petitioner because of multiple similarities with his case, including (i) both plaintiffs are
pro se litigants who refiled action against defendants after prior “voluntary” dismissal; (ii) both
cases deal with unlawful actions of employers, putting them in area of employment law; (iii) in
both cases, plaintiffs explicitly raised the issue of excessiveness of defendants’ expenses. Plus,
Andrews ruling was made after explicitly applying Seventh Circuit’s established standards of
review, the fact Petitioner specifically mentioned. Esposito was considered, but its approach
rejected in deciding Andrews, now cited in multiple cases nationwide denying defendants’
motions for costs, including Garza v. Citigroup, Inc., 881 F.3d 277,281 (3rd Cir. 2018), itself a
precedential case. However, neither Andrews nor Garza was even mentioned in the Order.
Andrews explicitly debunks Respondents’ claim that “it has long been recognized that the
staying of suits pending the payment of costs incurred in prior actions involving the same
parties and the same (or similar subject matter) is now universal.”
More general principle of not preventing plaintiffs’ access to judicial relief by imposed
prohibitively excessive costs being reversed is illustrated by Rumbough, another precedent not to
pay defendants’ expenses. There, the plaintiff, a frequent pro se filer, was relieved from payment
despite defendants not being responsible for his inability to pay, unlike Petitioner’s case.
In deciding Rumbough, the court stated, citing earlier case of Miller v. Donald, 541 F.3d
1091, 1096-97 (11th Cir. 2008) and echoing Seventh Circuit’s own Schilling v. Walworth County
Park, 805 F.2d 272 (7th Cir. 1986):

13

“A court’s exercise of its inherent powers sometimes collides with a litigant’s right of
access to the courts, which is unquestionably a right of considerable constitutional
significance. That right of access, however, is neither absolute nor unconditional. Courts
may impose conditions on access, but they also must ensure that indigent litigants are
not completely prohibited from seeking judicial relief.”
Rumbough deals with serial abuser ofjudicial system, similar to Gay, except that the
plaintiff is not incarcerated. Yet in both cases the dismissal with prejudice was reversed and
remanded. Also, both cases cited Aggarwal v. Ponce School of Medicine, 745 F.2d 723, 727-28
(1st Cir. 1984) in rendering decision. Since Petitioner is neither a serial abuser nor was he
accused of being such, both cases should provide precedent for rehearing, reversing and
remanding his case.
Aggarwal offers a test similar to the one cited by Petitioner in Hummell v. S.E. Rykojf &
Co., 634 F.2d 446, 452 (9th Cir. 1980) in his appeal to Seventh Circuit. Petitioner believes that if
test from either Aggarwal or Hummell were applied, he would be relieved from paying
Defendants’ expenses. Plus, Aggarwal instructs against courts being prejudiced towards
plaintiffs residing outside the court’s jurisdiction, like Petitioner. Defendants tried to discredit
Petitioner’s citation of Hummell and distorted it in process. Petitioner merely suggested that the
5-part test used in Hummell could be useful to decide merits of the issues in question as there is
no mention that such test should be strictly limited to Hummell-like cases.
The expenses in question were voluntarily incurred by Respondents who never address
issues of original Respondent Western rejecting arbitration/mediation and hiring two law firms to
defend their actions.
Petitioner provides both argument and precedent that could guide District Court to deny
Respondents’ expenses while remaining fully within its discretion. District Court should have
considered prohibitive excessiveness of Respondents’ expenses, issue brought up by Petitioner.
14

2.
Whether the Court should determine the priorities in the case of potential conflict
between two (or more) Federal Rules of Civil Procedure, in this case FRCP 60(b),
specifically FRCP 60(b)(l)-(3) and FRCP 41(b).
The scope of the Seventh Circuit panel’s review was too narrow. Even the District Court
wrote in its order while dismissing the case with prejudice that Petitioner “neither paid
Defendants’ expenses nor presented convincing argument as to why he should not pay”. On
appeal Petitioner both presented arguments with related precedents why he should not pay and
raised the issue of District Court not giving guidelines of what convincing argument should be
like. Petitioner believes that the Seventh Circuit overlooked these issues since they were not
mentioned in the Order, which concentrated on payment only.
Additionally, affirmation of district court’s ruling goes against the Seventh Circuit’s long
accepted doctrine of judicial restraint, especially involving pro se litigants, as mentioned in
multiple cases, many of which were cited in ARBA. Dismissal with prejudice is considered
extremely harsh measure, reserved only for exceptional cases, with courts preferring less drastic
measures instead. In Palmer v. City ofDecatur, Illinois, 814 F.2d 426 (7th Cir. 1987), the court
stated regarding involuntary dismissal with prejudice, which was reversed and remanded:
“At the time this action was first dismissed, plaintiff was ... acting pro se; therefore his
case is governed by a less stringent standard than litigants represented by lawyers.”
Furthermore, in deciding Palmer, Schilling was cited, stating, also as basis to reverse and
remand:
“This case presents the not uncommon conflict between the district courts’ need and
ability to control their dockets ... and the fundamental tenet of justice favoring the
resolution of cases on their merits”, Schilling, 805 F.2d at 272.
Schilling greatly resembles Petitioner’s case, where plaintiff, a naturalized American
citizen, spent rather short time period with his employer, a fact expressed in Order against the

15

Petitioner (“lasted only two years”, while in Schilling plaintiffs employment lasted less than six
months), was discriminated against and ultimately involuntarily terminated as the result of the
discrimination. Using Schilling as precedent, Petitioner case’s dismissal with prejudice should
have been reversed and remanded. Petitioner, not just “a Jewish man in his fifties”, as Order
states, but also a direct descendant of Holocaust survivors and victims (issue raised on the
record) believes that his non-payment to those responsible for his reliving of painful history and
who later used those expenses trying to prevail by dishonorable means does not make
exceptional case deserving dismissal with prejudice nor its affirmation. The Order never
addressed issues brought by Petitioner that his case was not an isolated incident, but rather a
pattern of toxic environment at Western, including but not limited to widespread bullying,
numerous thefts and involuntary terminations of employees deemed undesirable by
administration, particularly Thomas, for various reasons including high salaries, criticism of
administration, Jewish-sounding names and getting pregnant out of wedlock. One such incident,
initiated by Thomas, involved a fabricated case against tenured employee with 20+ years of
service with Western. The Order also misconstrues Petitioner’s employment at Western, never
discussing issue raised by Petitioner that his relatively short tenure there actually exceeded the
ones of other employees with Jewish-sounding names by a whole year, so the bad evaluations in
question were directly contrary to his stellar first year’s evaluations, giving validity to inference
that such evaluations were made because of Petitioner’s Jewish heritage rather than his job
performance. Petitioner was never placed on performance improvement plan, remedial plan or
anything similar by any other name. Petitioner still disputes validity of his second-year
evaluations and contends that his job performance was not substandard. Appellate review
procedures dictate that this statement should be considered true.

16

A dismissal for want of prosecution is still considered an exceptionally harsh measure
and should be reversed, as it was done in numerous cases within Seventh Circuit’s jurisdiction
since Palmer and Schilling. See Smolinski v. Allmerica Financial Alliance Insurance Co., No.
2014IL App (1st) 132029-U (a decision where plaintiff missed court appearances);
BankFinancial, FSB v. Tandon, 2013 IL App (1st) 113152 (addressing res judicata effect of a
voluntary dismissal under Illinois law); Gabriel v. Hamlin, 514 F.3d 734 (7th Cir. 2008).
The Seventh Circuit also did not address raised by Petitioner issue that Respondents’
ongoing actions in order to deny Petitioner opportunity to have his case heard in court directly
violate Petitioner’s rights afforded to him under Seventh, Eighth and Ninth Amendments to the
U.S. Constitution. Petitioner’s pointing out that affirmation of District Court’s decision would
create dangerous precedent by encouraging future defendants to gain advantage by any means
necessary, including illegal and possibly criminal ones, was addressed by listing the decision as
non-precedential, leading Petitioner to infer that the decision to affirm District Court’s decision
was made by making exception to accepted judicial doctrines and precedents, rather than
following them. Respondents did everything by any means necessary to prevent Petitioner from
having his opportunity to present merits of his case in court, in order not to let him expose their
illegal and possibly criminal actions. Seventh Circuit’s affirmation of District Court’s dismissal
with prejudice actually helps Respondents to prevent justice from being served and to avoid
responsibility for their illegal and possibly criminal actions.
In demanding upfront payment from Petitioner, Respondents brazenly cited the language
of FRCP 41(d), which actually says:

17

“(d) Costs of a Previously Dismissed Action. If a plaintiff who previously dismissed an
action in any court files an action based on or including the same claim against the same
defendant, the court:
(1)
may order the plaintiff to pay all or part of the costs of that previous action; and
(2)
may stay the proceedings until the plaintiff has complied.”
In citing it ad nauseam, Respondents freely interchanged words “may” and “will”;
“could” and “would” as it fits their agenda.
Watkins filed for voluntary dismissal that was entered on stipulation which Petitioner
would have never agreed to since Defendants did not waive any rights expressed under Federal
Rule of Civil Procedure 41(d). Respondents also ad nauseam bring up the issue of Watkins
telling (only after the fact) Petitioner that if the matter was refiled “the litigation has the
potential to be stayed at the request of the Defendant pursuant to FRCP 41(d) (permitting the
court to order plaintiff to pay all or part of the costs of a previous action and stay the proceeding
until plaintiff has complied if a plaintiff who previously dismissed an action in any court files an
action based on or including the same claim against the same defendant)” despite Petitioner
being steadily opposed to the idea of dismissal. Furthermore, since Respondents never held sway
over Petitioner’s decisions, their bringing up the issue of Petitioner’s ex-counsel advising against
refiling is irrelevant and purposely misleading.
The language of Rule 41(d) gave District Court a choice whether to enter an order
requiring payment of expenses when Petitioner refiled the action despite Respondents showing
bad faith which should have been incorporated into decision.
Seventh Circuit has interpreted Rule 41(d) as giving district courts the discretion to
choose whether to require payment of costs upon refiling. In other words, the language of the
Rule 41(d) permits the court to order the payment of costs, not requires.
Petitioner brought up another important issue that was never mentioned in Order, namely
18

application of FRCP 60(b)(l)-(3), an accepted standard to reverse and remand, and which would
render FRCP 41(d) moot. See Anderson v. Cryovac, Inc., 862 F.2d 910, 928-930 (1st Cir. 1988),
Rozier v. Ford Motor Co., 573 F.2d 1332,1339 (5th Cir. 1978), considered a standard-setting
case, and Seventh Circuit’s own Lonsdorfv. Seefeldt, 47 F.3d 893 (7th Cir. 1995). Petitioner
satisfied time and application requirements of FRCP 60(b)(l)-(3) in refiling of his case.
In Anderson the court in rendering decision specifically states:
“Misconduct does not demand proof of nefarious intent or purpose as a prerequisite to
redress.... Another well-sculpted marker points out that misconduct need not be resultaltering in order to merit Rule 60(b)(3) redress. ... (when information withheld in
discovery, aggrieved party need not establish that outcome would have been different). “
Petitioner only had to prove his case’s merit, misconduct of opposing party and the fact
that such misconduct foreclosed full and fair preparation of his case, which he did. He also
pointed out that such actions by BHY and Hunter took them out of category of counsel and into
category of accomplices, thus warranting their addition as defendants even though they were not
respondents in EEOC complaint. Same is true regarding Thomas due to her committing peijury.
Furthermore, judicial integrity doctrine and Seventh Circuit’s own precedents of Malin v.
Hospira, Inc., 762 F.3d 552 (7th Cir. 2014) and Waldon v. Wal-Mart Stores, Inc., Store No. 1655,
943 F.3d 818, 822 (7th Cir. 2019) preclude a party from prevailing if they attempted to prevail by
dishonorable means, regardless of whether such party is a plaintiff (Waldon) or defendant
{Malin) even if the FRCP 60(b) or similar was not invoked. In both Malin and Waldon Seventh
Circuit took the offending lawyers to task in order to strictly preserve integrity of justice.
3.
Whether the Court should enforce the desired uniformity of opinion by setting
guidelines which would eliminate occurrences when the opinion of the lower court or even
an individual judge seemingly contradicts their own from similar unrelated case.
Despite not relieving plaintiffs from paying defendants’ expenses, as many of its sister
Circuits do, Seventh Circuit still has in place procedures established to protect plaintiff’s access
19

to judicial relief, none of which was afforded to Petitioner. In addition to previously cited Palmer
and Schilling, whose issues brought up by Petitioner are still applicable currently, another such
reversed and remanded case is Marlow v. Winston Strawn, 19 F.3d 300, 305 (7th Cir. 1994).
Petitioner’s ex-counsel squandered opportunities and tools available to investigate the
case. During the course of discovery, Watkins ignored Petitioner’s information regarding
Hunter’s tampering with evidence and did not share with Petitioner instances of Respondents’
peijury. He also never suggested that Petitioner would take over the case himself or that an
appeal was available, thus depriving Petitioner of those opportunities and saddling him with a
dismissal that clearly benefited Respondents, not Petitioner. Watkins’ belated informing
Petitioner about possible consequences of dismissal against Petitioner’s wishes and best interest
did nothing to rectify the situation for Petitioner. That’s another reason for Petitioner not to pay,
since he was never given a chance to withdraw the counsel-initiated voluntary dismissal after
finding the conditions of refiling onerous, as was done in Marlow (citing, e.g. precedent of Lau
v. Glendora Unified School Dist., 792 F.2d 929 (9th Cir. 1986)).
When the District Court entered an order requiring Petitioner to show cause why the case
should not be dismissed for want of prosecution, it did not consider explicitly raised issue of
prohibitive excessiveness of those expenses to Petitioner, making Marlow relevant.
Additionally, cases of Del Carmen v. Emerson Electric Co., 908 F.2d 158 (7th Cir. 1990)
(involves FRCP 60(b)), Lowe v. City ofEast Chicago, 897 F.2d 272 (7th Cir. 1990), and Webber
v. Eye Corp., 721 F.2d 1067 (7th Cir. 1983) warrant reversing and remanding Petitioner’s case.
An alternate available procedure not afforded to Petitioner stems from Mother & Father
v. Cassidy, 338 F.3d 704, 708 (7th Cir. 2003), another case involving indigent plaintiffs. There,
parents of a minor suspected of heinous crime ran up defendants’ expenses before dismissing the

20

case for tactical reasons. Seventh Circuit stated, in denying defendants’ demand of upfront
expenses’ payment:
“We have recognized only two situations in which the denial of costs might be warranted:
the first involves misconduct of the party seeking costs, and the second involves a
pragmatic exercise of discretion to deny or reduce a costs order if the losing party is
indigent.”
In Petitioner’s case both conditions are present, as he already mentioned. Also, unlike
Mother Father, Petitioner is not the losing side, thus his case should be viewed more leniently,
including, unlike in Mother Father, consideration that Respondents rather than Petitioner were
running up own expenses, thus their brazen upfront payment demand should have been denied.
Application of FRCP 60(b)(l)-(3) due to opposition misconduct uniformly results in
reversal and remanding of cases similar to Petitioner’s by various Courts of Appeal, so does
opposition misconduct even if FRCP 60(b)(l)-(3) was not invoked. Further research shows
complete arbitrariness in Seventh Circuit’s decisions regarding reviews of dismissals with
prejudice by lower courts when the above factors are not involved. In the case of Williams v.
Adams, 660 F.3d 263 (7th Cir. 2011), similar to Petitioner’s, dismissal with prejudice was
reversed and remanded. Furthermore, in deciding it Seventh Circuit suggested subtracting
defendants’ expenses from either judgment in plaintiffs favor or settlement amount. The same
suggestion was made in Mother Father. In other words, Respondents’ demand of upfront
payment made the situation unacceptable for Petitioner, similar to Penny v. Shansky, 884 F.2d
329 (7th Cir. 1989).
In case of Rice v. City of Chicago, 333 F.3d 780 (7th Cir. 2003) while displeased with
plaintiffs behavior, Seventh Circuit considered defendants’ misconduct, “stonewalling the case”.
Petitioner explicitly raised issue of Defendants’ misconduct, but it was not addressed.
Petitioner is confused by Gay, cited in the Order since in that case lower court’s
21

decision was reversed and remanded. Almost the entire Gay decision supports Petitioner’s
arguments about reversing and remanding his case. Furthermore, Judge Hamilton was a
panel member in both Gay and this case and Petitioner’s case’s decision seemingly
contradicts Gay. Petitioner is judged much harsher than one in Gay, who is acknowledged as
abuser ofjudicial system while Petitioner was never accused by the courts of such actions.
These inferences are made by Order’s shortened version of citation, while full version says:
“By contrast, courts can bar future suits as a sanction to punish a refusal to pay past
court costs and sanctions even if the litigant is indigent.” Gay, 682 F.3d at 594.
Such reasoning does not apply to Petitioner, who is reviving old suit ruined by his ex­
counsel rather than initiate a new one. Also, court costs imply trial taking place, resulting in
prevailing side. Since due to Respondents’ despicable actions no trial took place, they are not
prevailing side, thus their expenses do not qualify as court costs. Plus, punishing Petitioner
simply for expressing indignation at the order to pay those who not only made Petitioner relive
painful history, but also used said expenses to facilitate illegal and possibly criminal actions goes
against established doctrine ofjudicial restraint.
Additionally, in deciding Gay, Aggarwal was cited, as mentioned above.
Similarly, District Court’s order of dismissal with prejudice conflicts with its own
reasoning in case of O ’Shaughnessey v. HSHS Med. Grp., Inc., Case No. 3:17-cv-3311 (C. D.
Ill. - Springfield Division, May 1, 2019)(citing Kasalo v. Harris & Harris, Ltd., 656 F.3d 557
(7th Cir. 2011)).
Other cases cited by Petitioner are Gabriel v. Hamlin, 514 F.3d 734 (7th Cir. 2008)
and Evans v. Griffin, Case No. 17-1957 (7th Cir., decided August 7,2019). In Gabriel, like in
this case, defendants tried to deny plaintiff his opportunity to present his case in court by
any means necessary. Evans specifically deals with uncooperative plaintiff. In deciding both
22

cases, Seventh Circuit urges the mentioned above judicial restraint. In both cases dismissal
with prejudice was reversed and remanded, directly contrary to one-size-fits-all application of
Esposito, inappropriate for this case but shamelessly pushed by Respondents nevertheless.
Cases of Johnson v. Chi. Bd. OfEduc., 718 F.3d 731 (7th Cir. 2013) and Sroga v.
Huberman, 722 F.3d 980 (7th Cir. 2013), both involving public schools’ employees, also
warrant reversing and remanding Petitioner’s case.
Esposito, cited by Respondents ad nauseam, is not applicable to Petitioner’s case for
several important reasons, as follows: (i) in Esposito, plaintiff made numerous questionable
choices, including breaking the law which led to his incarceration, as well as missing deadlines
despite court’s reminders; (ii) Seventh Circuit’s decision in Esposito was based partly on the fact
that the plaintiff never raised the issue of excessiveness of defendants’ court costs, just their
award, as Respondents admitted in Appellees’ Brief:
“Esposito does not deny that the current action includes allegations brought in the
previously-dismissed case, nor does he argue that the costs themselves are excessive.
Rather, he argues that the order directing the payment of costs and the stay of
proceedings unfairly denied him access to the courts because he is unable to pay the
costs.” Esposito, 223 F.3d at 502.
On contrary, in the present case Petitioner explicitly raised the issue of prohibitively excessive
award of Respondents’ expenses in both his Motion to Waive Payment and Appeal to the
Seventh Circuit; (iii) in Esposito plaintiff personally dismissed his original lawsuit. In the present
case, Petitioner contends that the original dismissal was done by his ex-counsel against
Petitioner’s wishes while failing to timely (before doing that dismissal) inform Petitioner of
possible consequences, in line with Watkins’ pattern of failing to represent Petitioner’s best
interest in the case; (iv) in Esposito plaintiff added extra defendants arbitrarily while in present
case Petitioner added extra defendants for specific spelled out purposes and (v) finally and most
23

importantly, in Esposito defendants were not responsible for the plaintiffs indigence, which was,
again, the result of his own questionable choices. On contrary, in this case Respondents BHY
and Hunter’s illegal and possibly criminal actions are directly responsible and liable for
Petitioner’s indigence. Moreover, BHY and Hunter used those expenses to facilitate said actions,
thus paying them would be rewarding such illegal and possibly criminal actions. Petitioner
presented these reasons in detail, but Seventh Circuit’s panel used Esposito nevertheless, without
mentioning Petitioner’s arguments about its inappropriateness. Plus, because of Respondents’
illegal actions all their cited cases including Esposito are moot and inapplicable as such.
On contrary to Mother Father and Williams, in deciding Tango Music, LLC v. DeadQuick
Music, Inc., 348 F.3d 244,247 (7th Cir. 2003), Seventh Circuit stated:
“Tango’s principal argument is that the lawyer’s depression was a good excuse for his
neglecting his responsibilities. We may assume that it was. But that is not the issue. The
issue is whether Tango had a good excuse for failing to prosecute its case. It did not. It is
a business firm, not a hapless individual, and it has to take responsibility for the
actions of its agents, including the lawyers whom it hires.”
Using the reasoning of Tango, Petitioner’s case as well as cases of Easley v. Kirmsee, 382 F.3d
693 (7th Cir. 2004) and Martinez v. Chicago, 499 F.3d 721 (7th Cir. 2007) should have been
reversed and remanded, yet all of them were affirmed. Specifically, while affirming Martinez,
Seventh Circuit acknowledged that:
“It is unfortunate for Martinez that her attorney’s neglect resulted in the dismissal of
what may have been a meritorious action. The result here may seem harsh, but when a
lawyer’s inattentiveness becomes as serious as it was here, it imposes costs on everyone:
the client, the opponent, and the court system. LaPonte was Martinez’s agent, and
Martinez is thus bound by his actions.... The proper remedy, if she is to have one at all,
is a malpractice action against the attorney.”
In affirming Martinez, Tango was cited despite the fact that plaintiff in Martinez would qualify
as “hapless individual”, similar to both Williams and Petitioner. Furthermore, Martinez
24

contradicts the precedent of Bolt v. Loy, 227 F.3d 854 (7th Cir. 2000), a reversed and remanded
case in which the Seventh Circuit stated:
“It also was not his error but his lawyer’s, and it is ordinary preferable ... to sanction the
lawyer for the lawyer’s mistake than, by dismissing the suit, to precipitate a second suit a suit against the lawyer for malpractice. The courts have more than enough legal
business as it is.”
Overall, Petitioner’s case was treated extremely harsh. The merits of the case were never
considered, unlike Seventh Circuit’s own Smith v. Sheahan, 189 F.3d 529 (7th Cir. 1999), a case
where one isolated but severe incident sufficed for reversal and remand of summary judgment
and Ayissi-Etoh v. Fannie Mae, 712 F.3d 572 (D.C. Cir. 2013), another reversed and remanded
case similar to his. Opposition’ misconduct was never addressed, contrary to Anderson, Rozier,
Lonsdorf Malin and Waldon. Plaintiff was not afforded less stringent standards of review for pro
se litigants, contrary to Palmer and Schilling. He was not allowed to withdraw counsel-initiated
voluntary dismissal due to onerous conditions upon refiling, contrary to Marlow. He was neither
relieved from paying excessive for him defendants’ expenses contrary to Herring, Duffy,
Andrews and Garza nor afforded an opportunity to deduct those expenses from monetary award
by jury or settlement amount contrary to Williams and Mother Father. Instead, the courts did
nothing to protect him from Respondents’ extortionist demand to pay said expenses upfront
despite being advised and well knowing that those expenses were prohibitively excessive. His
case was decided on one-and-done basis after he expressed indignation at such brazen demand,
not being afforded any second chances contrary to Palmer and Schilling and unlike Tango,
Easley, Martinez and Esposito, in each of which the courts were exasperated by ongoing pattern
of misconduct by plaintiffs or their attorneys and which was not the case here. After refiling, the
case never was even active, being stayed almost immediately following Respondents’

25

extortionist demands for payment of expenses. As such, any delays after the case being in limbo
are due to Respondents’ actions, not Petitioner’s. Finally, the case being designated as nonprecedential implies that the decision was based not on established doctrines and precedents but
contrary to them. This contradicts yet another doctrine that such cases should be viewed more
leniently, as in Rumbough, not harsher.
Respondents falsely claimed that “Plaintiff’s prior counsel informed him that the matter
would be stayed and he would be required to pay costs upon refiling” while also admitting that
the said letter said “could”, not “would”. Then, Respondents mock Petitioner by claiming that
“the District Court gave ample opportunity to pay the expenses”. Petitioner explicitly mentioned
that those expenses were prohibitively excessive. It’s like a flyweight boxer, given even
unlimited time to prepare, still would have no chance against a heavyweight. Such comparison is
true for this case considering that original Defendant Western is a public, meaning taxpayerfunded entity with little to none oversight from stakeholders, namely taxpayers.
Respondents’ actions in this case are the perfect illustration of the fact that many ordinary
people cannot get access to justice because they cannot afford it, as Aggarwal, among others,
specifically states, recently reiterated by the Honorable US Supreme Court Justice Neil Gorsuch.
Respondents’ actions, in addition to violating principles of American judicial system, also violate
Judeo-Christian principles on which it is based. Namely, these principles call “do not purposely
put an obstacle in blind man’s path”, which Respondents do, trying to abuse relative ignorance of
Petitioner, who is not a lawyer neither by schooling nor by trade and learns as he goes.
Overall, all the precedents cited in this Petition’s Table of Authorities involving reversed
and remanded cases (encompassing in time ones established before, parallel to and after
inappropriate for this case Esposito) as well as universally accepted doctrines of courts’

26

*

accessibility for litigants and judicial restraint, discouraging courts’ harsh judgments, favor
Petitioner’s case proceeding without paying Respondents’ voluntarily incurred expenses which
were also used to unfairly and illegally gain advantage over Petitioner.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

MUl

By: Is! Mikhail S. Tsukerman
Mikhail S. Tsukerman
Acting Pro Se
5 Delcrest Court, apt. 104
St. Louis, Missouri 63124
(314) 872-9545
tsukerman@sbcglobal.net

27

CERTIFICATE OF COMPLIANCE WITH
FRAP RULE 32(a)(7), FRAP RULE 32(g) AND CR 32(c)
The undersigned Petitioner, Mikhail S. Tsukerman, furnishes the following in
compliance with F.R.A.P. Rule 32(a)(7):
I hereby certify that this Petition conforms to the rules contained in F.R.A.P. Rule
32(a)(7) for a petition produced with a proportionally spaced font.
The length of this petition is 8510 words.
Dated: July 9, 2020.

By:

MIKHAIL S. TSUKERMAN
Petitioner,
Acting Pro Se
5 Delcrest Court, apt. 104
St. Louis, MO 63124
(314)872-9545
tsukerman@sbcglobal .net

28

PROOF OF SERVICE
The undersigned Petitioner, Mikhail S Tsukerman, hereby certifies that
Respondents were promptly notified upon filing this Petition for Writ of Certiorari with
the Court.
Dated: July 9, 2020.

JjUkkciiJlt
By:

MIKHAIL S. TSUKERMAN
Petitioner,
Acting Pro Se
5 Delcrest Court, apt. 104
St. Louis, MO 63124
(314)872-9545
tsukerman@sbcglobal.net

29

